No. 19-1366
*-f
Q

upreme Court of the Einiteb = tate5

SHIYANG HUANG, PETITIONER,
v.
VALESKA SCHULTZ, MELANIE WAUGH, ROSALIND STALEY,
INDIVIDUALLY AND ON BEHALF OF ALL OTHERS SIMILARLY SITUATED, ET AL.,
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

CERTIFICATE OF SERVICE
I hereby certify that on this 8th day of July 2020, I caused a PDF of the Second
Supplemental Brief of Petitioner to be served to the following via agreement by E-mail:
Mark G. Boyko
Gregory Y. Porter
Jeffrey R. Baron
mboyko@baileyglasser.com
gporter@baileyglasser.com
jbaron@baileyglasser.com
Mark K. Gyandoh
markg@capozziadler.com
•
Robert A. Izard
Mark P. Kindall
Douglas Needham
rizard @ikrlaw.com
mkindall@ikrlaw.com
dneedhani@ikrlaw.com

Thonias J. Kavaler
tkavaler@cahill.com
James F. Bennett
jbennett(kdowdbennett.com
Counsel for Respondents
Edward Jones et al:

Counsel for Plaintiffs Respondents
I further certify that all parties required to be served have been served. Under 28
U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 8, 2020.

•

/s/ SHIYANG HUANG
SHIYANG HUANG
Pro Per
2800 SW Engler Ct.
Topeka, KS 6661.4
(314) 669-1858
defectivesettlement@gmail.com

